     OFFICE OF THE SPECIAL INSPECTOR GENERAL FOR AFGHANISTAN RECONSTRUCTION




    USAID Spent Almost $400 Million on an Afghan
   Stabilization Project despite Uncertain Results, but
    Has Taken Steps to Better Assess Similar Efforts




                                       April 25, 2012




SIGAR Audit-12-8 Development / Local Governance and Community Development
                    SIGAR
                                                             SIGAR Audit-12-8                                                           April 2012
                                                                 USAID Spent Almost $400 Million on an Afghan
                                                              Stabilization Project despite Uncertain Results, but Has
  Special Inspector General for Afghanistan Reconstruction
                                                                    Taken Steps to Better Assess Similar Efforts

What SIGAR Reviewed
In October 2006, the U.S. Agency for International Development (USAID) awarded two task orders to Development Alternatives,
Inc. (DAI) and Associates in Rural Development (ARD) to implement the Local Governance and Community Development (LGCD)
project in Afghanistan. Although LGCD changed over time, it was designed to contribute to the creation of a stable environment for
medium- and long-term political, economic, and social development. Since September 2003, USAID has obligated more than
$1.1 billion for 20 major contracts or grants that covered stabilization efforts. As of September 2011, USAID had expended about
$373 million for the LGCD project. Although LGCD has ended, USAID is continuing its stabilization efforts, including awarding two
contracts totaling $151 million for a program called Stabilization in Key Areas (SIKA). This report assesses (1) the cost and
outcomes of the LGCD project and (2) USAID oversight of the project. In conducting our work, we reviewed and analyzed USAID
and contractor documents; met with USAID officials at USAID headquarters in Washington, D.C., and at the USAID Mission in
Kabul, Afghanistan, and with senior representatives from both contractors at their respective headquarters in Bethesda, Maryland, and
Burlington, Vermont; and visited seven LGCD subprojects in two Afghanistan provinces. We conducted our work from January
2011 through March 2012 in accordance with generally accepted government auditing standards.


What SIGAR Found
USAID increased LGCD’s funding and extended the life of the program, despite delays, unexpectedly high contractor operating costs,
difficulty setting and measuring program outcomes, and indications that, at best, the program had mixed results. LGCD was initially
approved with a funding ceiling of no more than $150 million and was to last 3 years. However, USAID increased funding for the
program to almost $400 million and extended the project by almost 2 years. LGCD presented a number of challenges for USAID.
For example, less than half of all LGCD funds were spent on subproject activity, even though the original task orders called for the
majority of funds to be spent for that purpose. USAID also had difficulty determining whether LGCD was effective and changed its
expectations over time of what it could achieve through the program. Available evaluations of the program indicate that it had mixed
results. For example, an independent evaluation conducted at USAID’s request found that, although the project had pockets of
success, it had not met its overarching goal of extending the legitimacy of the Afghan government and had not brought the
government closer to the people or fostered stability.
We found that USAID was hindered in its ability to monitor LGCD contract performance, a problem that USAID has reported
regarding its other programs in Afghanistan for almost a decade. USAID has several methods for monitoring contract performance,
such as field visits and third party monitoring, but these efforts are often hampered by travel and security restrictions. The U.S.
government accepts a certain amount of risk in undertaking programs like LGCD. This makes obtaining supporting data from
contractors for their invoices and conducting financial audits of the contractors particularly important. However, we found that the
LGCD task orders and related contracts did not require contractors to submit supporting documentation for their invoices. In
addition, USAID only recently committed to contract for a financial audit of the LGCD project, which is planned to occur in 2012.

What SIGAR Recommends
To strengthen USAID’s oversight of contractor costs and allow it to link invoiced costs to the goods and services to be provided,
SIGAR recommends that the Mission Director, USAID/Afghanistan, direct contracting officers to ensure that the SIKA contracts and
others, as appropriate, require contractors to provide complete supporting detail with invoices. In commenting on a draft of this
report, USAID stated that that its current policy guidance already addresses our concern about strengthening oversight of contractor
costs. However, USAID’s policy guidance depends on annual audits of contractors’ costs to provide reasonable assurance that
contractors are only claiming eligible, supported costs for reimbursement. Because USAID has a significant backlog of incurred cost
audits, relying on this policy is not sufficient to address our concerns. In programs like LGCD, the risk that the U.S. government
accepts is particularly high, and additional cost verification measures are necessary. USAID further stated that if we retained the
recommendation it should be addressed to the USAID Administrator because it pertains to the entire agency. Although our
recommendation may have broader applicability, we addressed this recommendation at the Mission level given the unique risks posed
by stabilization programs in Afghanistan. Therefore, we kept the recommendation addressed to the Mission Director. If USAID
believes that the recommendation has broader applicability, we welcome its efforts to apply it throughout the agency.


               For more information contact: SIGAR Public Affairs at (703) 545-5974 or sigar.pentagon.ccr.mbx.public-affairs@mail.mil
     OFFICE OF THE SPECIAL INSPECTOR GENERAL FOR AFGHANISTAN RECONSTRUCTION


April 25, 2012

The Honorable Hillary Rodham Clinton
Secretary of State
The Honorable Ryan C. Crocker
U.S. Ambassador to Afghanistan
Dr. Rajiv Shah
Administrator, U.S. Agency for International Development
Dr. S. Ken Yamashita
USAID Mission Director for Afghanistan

This report discusses the results of the Office of the Special Inspector General for Afghanistan
Reconstruction’s (SIGAR) audit of the U.S. Agency for International Development’s (USAID) Local
Governance and Community Development project. This report includes one recommendation to the
USAID Mission Director to Afghanistan to direct contracting officers to include a contract provision in
future stabilization program contracts requiring contractors to provide complete supporting detail with
their invoices. This measure would better allow contracting officer representatives, who are responsible
for reviewing invoices, to link costs to the goods and services provided.

When preparing the final report, we considered comments from USAID. USAID commented that it has
developed best practices and lessons learned from its stabilization efforts, including LGCD. USAID took
exception to the recommendation and several findings. We chose to retain our recommendation. We
conducted this performance audit under the authority of Public Law No. 110-181, as amended; the
Inspector General Act of 1978; and the Inspector General Reform Act of 2008. USAID’s comments are
reproduced in appendix VI.




Steven J Trent
Acting Special Inspector General
  for Afghanistan Reconstruction




SIGAR Audit-12-8 Development / Local Governance and Community Development                           Page i
TABLE OF CONTENTS

Background ................................................................................................................................................... 2
USAID Increased LGCD’s Size, Despite Numerous Challenges and Little
  Evidence of Success ............................................................................................................................... 4
USAID Was Limited In Its Ability To Monitor LGCD Activities ............................................................. 11
Conclusion .................................................................................................................................................. 17
Recommendation ........................................................................................................................................ 17
Comments ................................................................................................................................................... 17
Appendix I: Scope and Methodology ........................................................................................................ 19
Appendix II: ARD’s Contract Modifications............................................................................................. 21
Appendix III: DAI’s Contract Modifications............................................................................................. 22
Appendix IV: Extent To Which DAI Met Performance Indicators in Fiscal Years
   2009, 2010, AND 2011 ........................................................................................................................ 24
Appendix V: Study Summaries on the Impact of Development on Stability ............................................ 27
Appendix VI: Comments From The U.S. Agency For International
   Development ........................................................................................................................................ 29


 TABLES

Table 1: Status of LGCD Funds as of September 30, 2011(dollars in millions) .......................................... 5
Table 2: Proportion of LGCD Contractors’ Costs by Category.................................................................... 6
Table 3: Summary of Contractor Performance in Meeting LGCD Program
   Targets, Fiscal Years 2008-2011 ............................................................................................................ 9
Table I: Modifications to IQC DFD I-00-05-00248, Task Order 02 ......................................................... 21
Table II: Modifications to IQC DFD I-02-05-00250, Task Order 02 ........................................................ 22
Table III: DAI-Reported Success in Meeting Performance Targets in Fiscal Year
   2009 ...................................................................................................................................................... 24
Table IV: DAI-Reported Success in Meeting Performance Targets in Fiscal Year
   2010 ...................................................................................................................................................... 25
Table V: DAI-Reported Success in Meeting Performance Targets in Fical Year
   2011 ...................................................................................................................................................... 26




SIGAR Audit-12-8 Development / Local Governance and Community Development                                                                              Page ii
ABBREVIATIONS AND ACRONYMS

ADS                    Automated Directives System
ARD                    Associates in Rural Development, Inc.
Checchi                Checchi and Company Consulting, Inc.
COIN                   counterinsurgency
COR                    Contracting Officer’s Representative
DAI                    Development Alternatives, Inc.
DCAA                   Defense Contract Audit Agency
DSF                    District Stabilization Framework
GAO                    Government Accountability Office
GIRoA                  Government of the Islamic Republic of Afghanistan
LGCD                   Local Governance and Community Development
OIG                    Office of Inspector General
PMP                    Performance Management Plan
PRT                    Provincial Reconstruction Team
RFTOP                  Request for Task Order Proposal
SIGAR                  Special Inspector General for Afghanistan Reconstruction
SIKA                   Stabilization in Key Areas
USAID                  U.S. Agency for International Development




SIGAR Audit-12-8 Development / Local Governance and Community Development         Page iii
      USAID Spent Almost $400 Million on an Afghan Stabilization Project
              despite Uncertain Results, but Has Taken Steps to
                        Better Assess Similar Efforts


The U.S. Agency for International Development (USAID) has implemented a broad spectrum of
development programs throughout Afghanistan. The country’s insecure environment, however, has also
required robust stabilization programming to work in partnership with the Government of the Islamic
Republic of Afghanistan (GIRoA), coalition forces, and development partners, often in the country’s most
remote and challenging regions. Although the U.S. government has varying definitions of stabilization,
USAID has defined the term as the process by which underlying tensions that might lead to resurgence in
violence and a breakdown in law and order are managed and reduced, while efforts are made to support
successful long-term development. 1 Since September 2003, USAID/Afghanistan has obligated more than
$1.1 billion for 20 major contracts or grants that covered stabilization efforts. Two of the 20 awards were
for the Local Governance and Community Development (LGCD) project with obligations of more than
$328 million and $70 million, respectively.

To implement LGCD, which was overseen by a series of USAID Contracting Officer’s Representatives
(COR), 2 USAID competitively awarded cost-reimbursable task orders to two contractors in
October 2006. 3 The task order for LGCD work in the northern and western provinces of Afghanistan was
awarded to Associates in Rural Development, Inc. (ARD), and the task order for work in the southern and
eastern provinces was awarded to Development Alternatives, Inc. (DAI). USAID relied on the
contractors to propose, implement, monitor, and evaluate subprojects. In implementing subprojects, the
contractors procured commodities, provided training, undertook small-scale development and
rehabilitation, and provided subject matter experts in fields such as conflict mapping and analysis. The
two contractors completed 2,938 4 work activities (subprojects) covering districts and villages in all 34 of
Afghanistan’s provinces. USAID terminated ARD’s original task order for convenience, effective
June 30, 2009. The LGCD project ended on August 28, 2011, with the closure of DAI’s project office in
Kandahar, Afghanistan.

This report assesses (1) the cost and outcomes of the LGCD project and (2) USAID oversight of the
project. To accomplish these objectives, we reviewed and analyzed USAID and contractor documents.
These included the original LGCD approval document; associated contracts, task orders, and
modifications; USAID LGCD contract files; contractor plans and reports reviewed and approved by

1
  This definition appeared in USAID’s LGCD task order, which in turn referenced the U.S. Army’s 2008 Field
Manual, entitled Stability Operations.
2
  The CORs were called Cognizant Technical Officers until January 26, 2009, when the designation was changed to
the Contracting Officer’s Technical Representative. In February 2012, USAID stated that the Contracting Officer’s
Technical Representative designation had been changed to Contracting Officer’s Representative.
3
  USAID used two of its Indefinite Quantity Contracts to award the LGCD task orders. The contracts adhere to
Federal Acquisition Regulation Subpart 16.5, which provides for a definite quantity of specific supplies or services
for a fixed period, with deliveries or performance to be scheduled at designated locations upon order. The task
orders were awarded on a cost-plus-fixed fee basis under which USAID reimburses the contractors for all allowable
costs plus a fixed fee.
4
  DAI completed 2,451 projects and ARD completed 487 projects.
SIGAR Audit-12-8 Development / Local Governance and Community Development                                    Page 1
USAID; and records on selected subprojects performed between 2006 and 2011. In addition, we
examined contractor invoices, USAID payments of those invoices, and the contractors’ financial records.
We also reviewed USAID Office of Inspector General (OIG) reports and a USAID-contracted assessment
of LGCD project outcomes, as well as Afghanistan violence data maintained by the Defense Intelligence
Agency. We reviewed reports from U.S. government and nongovernmental sources with substantial
experience in Afghan reconstruction on the effectiveness of aid programs in promoting stability in
Afghanistan. We interviewed USAID officials at USAID headquarters in Washington, D.C., and at its
Mission in Kabul, Afghanistan, and senior representatives from both contractors. With the assistance of
the U.S. military and USAID officials on provincial reconstruction teams (PRT), we visited seven LGCD
subprojects in two Afghanistan provinces. We conducted our work from January 2011 through March
2012 in accordance with generally accepted government auditing standards. Appendix I contains a more
detailed discussion of our scope and methodology.


BACKGROUND

Although stability was consistently a core component and focus of LGCD, the program also evolved to
reflect and conform to the changing U.S. strategy in Afghanistan. When the program was first approved
in 2006, its primary expected outcome was to stabilize unstable areas through projects that help the
GIRoA extend its reach into remote districts, encourage local communities to take an active role in their
own development, and create incentives for stability in critical border provinces. The statement of work
for the LGCD task orders, also issued in 2006, described LGCD’s principal goal as helping the GIRoA
and local citizens develop the institutions, processes, and practices that will create a stable environment
for long-term political, economic, and social development. The task orders contained four broad areas of
work to be undertaken by the contractors, each with an expected outcome.

    •   Support to local public administration and governance. The expected outcome was improved
        provincial and municipal capacity to deliver services and address citizen needs. Examples of
        projects undertaken were leadership and management training and technical assistance in disaster
        management.
    •   Community mobilization and development. The expected outcome was greater community
        participation in the selection and implementation of small scale development projects and
        stronger ties between these communities and local government bodies that are responsible for
        provincial development. Examples of projects undertaken were information technology
        equipment purchases and furniture repair.
    •   Local stability initiatives. The expected outcome was improved stability in targeted districts and
        provinces. Examples of projects undertaken were canal cleaning, bridge repairs, and vocational
        training.
    •   Sector expertise. The expected outcome was to provide subject matter expertise to assist PRTs by
        identifying a pool of experts in subjects such as agriculture, local governance, conflict
        management, infrastructure, and community mobilization. Examples of projects undertaken were
        a water use survey, health facility assessment, and an alternative energy survey.

The task orders also identified which of USAID/Afghanistan’s overall strategic objectives LGCD would
support. First, LGCD was to improve stability by extending the reach of the central government, working
to address the needs of isolated and under-served communities, and using development projects to address
underlying causes of instability and support for insurgency in Afghanistan's outlying provinces. Second,
LGCD was intended to reinforce other USAID programs by complementing training to provincial
governments under the Mission's democracy and governance projects and cross-cutting capacity building
programs.


SIGAR Audit-12-8 Development / Local Governance and Community Development                            Page 2
In 2009, the project was redesigned to align more closely with the U.S. government’s counterinsurgency
(COIN) strategy, with USAID labeling LGCD its “flagship counterinsurgency program.” The first work
component, support to local public administration and governance, was eliminated from LGCD and
moved to USAID/Afghanistan’s capacity building program. The remaining three work components were
aligned with the first three phases of the four-step COIN strategy—assess, clear, hold, and build.
Specifically, the fourth work component, sector expertise, was aligned with the “assess” phase; the third
work component, local stability initiatives, was aligned with the “clear” phase; and the second work
component, community mobilization and development, was aligned with the “hold” phase. Other
significant changes in 2009 included further decentralizing authority and responsibilities to the managers
of regional and provincial offices, extending the reach of the program from 16 to 22 districts, and
allowing for further expansion to provinces in the north and west, security permitting.

Under this new configuration, the stated primary goal of LGCD was to assist in creating a stable
environment for long-term political, economic, and social development in partnership with the GIRoA.
The stated objectives of the program were to (1) assist the GIRoA to extend its reach into unstable areas
and engage at-risk populations by building the capacity of provincial and local government officials to
deliver services and address citizen needs, (2) create an environment that encourages local communities
to take an active role in their own development, and (3) promote stability by addressing the underlying
causes of violence and support for insurgency.

In March 2010, LGCD was expanded nationwide in concert with the civilian uplift5 announced by
President Obama in December 2009. The program ended in August 2011.

LGCD Established Monitoring and Evaluation Requirements for Contractors

Under LGCD, each contractor was required to establish and maintain a performance-based monitoring
and evaluation system capable of tracking and documenting the status of implementation of all work
components' activities for the task order, the provision of deliverables, and the progress toward achieving
targets and results.

The LGCD task orders did not prescribe performance indicators or targets, but rather directed that the
contractors establish and maintain a performance-based monitoring system that, at a minimum, was to
include several elements, including reporting of deliverables against work plan targets. The specific
indicators and targets were established through Performance Management Plans (PMP) in a collaborative
process, with the contractors proposing and USAID approving the indicators and performance targets.
Specifically, the task orders required the contractors to provide the following:

    •   A work plan describing the task order-level outputs that the contractor expected to achieve during
        the planning period, linked to contract-level performance indicators and targets in the Mission's
        PMP and set forth in the task order performance monitoring and evaluation plan. The work plan
        was to include an explanation of how those task-level outputs were expected to contribute to
        USAID’s strategic objectives and intermediate results and a budget.
    •   Annual reports that included the results the contractor had recorded from the application of the
        agreed-upon results monitoring plan. In addition, the contractor was to provide thorough
5
 In 2009, President Obama announced the expansion of civilian-led efforts to build Afghan governing capacity at all
levels, improve the rule of law, and initiate sustainable economic growth. This effort has been supported by a
significant increase, or “uplift,” in U.S. civilian employees deployed to Afghanistan, from 320 personnel in
January 2009 to over 1,200 authorized positions as of May 31, 2011. For additional information on the civilian
uplift, see SIGAR Audit-11-2, U.S. Civilian Uplift in Afghanistan is Progressing, Some Key Issues Merit Further
Examination as Implementation Continues (Oct. 26, 2010) and SIGAR Audit-11-17 and Department of State OIG
AUD/SI-11-45, The U.S. Civilian Uplift in Afghanistan Has Cost Nearly $2 Billion, and State Should Continue to
Strengthen Its Management and Oversight of the Funds Transferred to Other Agencies (Sept. 8, 2011)
SIGAR Audit-12-8 Development / Local Governance and Community Development                                   Page 3
           monitoring data by the end of October of each year of the task order, when the USAID Mission
           begins drafting its annual performance report to USAID Washington.
       •   A final report to include a summary of accomplishments achieved under the task order,
           discussion of problems encountered where objectives were not achieved, and lessons learned.

USAID Has Continued Stabilization Activities

Although LGCD has ended, USAID is continuing its stabilization efforts. It has awarded contracts for a
new program, called “Stabilization in Key Areas” or SIKA, which has similarities to LGCD. As
described in USAID’s request for proposals, SIKA has some programmatic, methodological, and
administrative similarities to LGCD, including the main objective of stabilization. For example, LGCD
and SIKA focus on activities with relatively short-term results that connect populations to more
responsive local governments that meet their citizens’ needs. On the other hand, in the request for
proposals, promoting reconciliation and peace negotiations and emphasizing greater district-level GIRoA
control over the selection and implementation of projects are larger elements of SIKA than they were for
LGCD. USAID received bids from a number of contractors and in December 2011, awarded an
18-month contract for the eastern part of Afghanistan valued at $88 million; in January 2012, USAID
awarded an 18-month contract for the western part of Afghanistan valued at about $63 million. Over the
next 3 years, USAID plans to spend between $400 and $466 million on SIKA.


USAID INCREASED LGCD’S SIZE, DESPITE NUMEROUS CHALLENGES AND
LITTLE EVIDENCE OF SUCCESS

USAID increased LGCD’s funding and extended the life of the program, despite delays, unexpectedly
high contractor operating costs, difficulty setting and measuring program outcomes, and indications that,
at best, the program had mixed results. LGCD was initially approved with a funding ceiling of no more
than $150 million and a completion date of October 2009. By the time the program ended, USAID had
spent almost $373 million and extended the program by almost 2 years. USAID made these funding and
schedule decisions despite facing a number of challenges. For example, the program experienced
substantial delays in its first 2 years, and less than half of all LGCD funds were spent on subproject
activity, even though the original task orders envisioned that the majority of funds would be spent for that
purpose. Our review of contract documents, program evaluations, and interviews with USAID officials
also shows that USAID had difficulty determining whether LGCD was effective and changed its
expectations over time of what it could achieve through the program. Furthermore, those efforts that
USAID and others made to evaluate the program indicated that results were mixed.

USAID Expanded LGCD beyond Originally Planned Size and Scope

Through a series of contract modifications, USAID both increased LGCD’s funding and extended its
project life. The original LGCD task orders were awarded for a 3-year period, which ended October
2009. LGCD’s project approval action memorandum, issued in March 2006, stated that up to about
$93 million over 3 years was planned. It also noted that, should additional resources become available in
the second 2 years of the program (fiscal years 2007 and 2008), a total cumulative ceiling of $150 million
would be authorized.

However, by the end of fiscal year 2008, USAID had obligated almost $226.5 million for the program
through a series of modifications to the two task orders and had extended DAI’s task order completion
date from December 1, 2009 to September 30, 2010. 6 Later modifications to DAI’s task order further
increased the ceiling price and extended the completion date. (See appendices II and III for additional

6
    As noted earlier, USAID terminated ARD’s contract for convenience effective June 2009.
SIGAR Audit-12-8 Development / Local Governance and Community Development                            Page 4
details of each task order’s modifications.) As noted earlier in this report, some of the expansions were
driven by an increasing emphasis on LGCD’s role in supporting the counterinsurgency effort nationwide
and by the civilian uplift that took effect at the beginning of 2009. In total, as shown in table 1, USAID
had allocated a total of $430 million for LGCD, obligated $398 million, and expended $373, as of
September 30, 2011.


        Table 1: Status of LGCD Funds as of
        September 30, 2011(dollars in millions)
                          ARD         DAI         Total
        Allocated          $ 81        $ 349         $ 430
        Obligated          $ 70        $ 328         $ 398
        Spent              $ 56        $ 317         $373
        Source: SIGAR analysis of USAID data.

USAID expects to de-obligate remaining unexpended amounts once DAI’s final billings have been
settled.

LGCD Posed a Number of Challenges

USAID experienced a number of challenges related to LGCD. First, both contractors experienced
substantial delays at the beginning of the project. Second, USAID spent more on contractor operating
expenses, such as security and labor, and less on actual subproject activity than originally planned. Third,
USAID struggled to determine what LGCD could and would achieve. Fourth, USAID had difficulty
measuring the impact of LGCD.

LGCD Experienced Initial Delays

In 2009, in what were to be end of program evaluations, USAID’s OIG and Checchi and Company
Consulting, Inc. (Checchi) 7 each reported significant delays with project implementation in the first 2
years of the LGCD project. 8 The OIG found that the project suffered from delays in three of the four
initial program components and reported that the project had been hindered, in part, by the need for
refinements in the Mission’s operational plan indicators and timely Mission approval of DAI’s annual
work plans. According to the Checchi report, both contractors experienced delays due to the need to
decentralize operations and comply with the long-term process for approving an operational plan by
which the task orders could be achieved. In addition, Checchi reported that the contractors needed time to
integrate LGCD within the context of national Afghanistan development strategies and coordinate
implementation with affected national ministries, policy bodies, and structures.

USAID’s OIG made 12 recommendations to assist USAID/Afghanistan in improving its implementation
and monitoring. USAID reported that it took steps to improve the program, and USAID OIG agreed with
these steps. These steps included, among others, providing training for USAID personnel on their LGCD
roles and responsibilities and developing standard procedures for contractor data collection and retention.



7
 The Checchi review was conducted at USAID/Afghanistan’s request.
8
 See USAID OIG Audit of USAID/Afghanistan’s Local Governance and Community Development Project in
Southern and Eastern Regions of Afghanistan (Report No. 5-306-09-003-P; May 11, 2009); and Checchi and
Company Consulting, Inc., Final Report, Local Governance and Community Development Program (LGCD),
Evaluation, January 2009. The OIG report covered DAI’s performance from 2006 through 2008 but did not
evaluate ARD’s performance under its task order.
SIGAR Audit-12-8 Development / Local Governance and Community Development                                Page 5
From September 2009 through the end of the LGCD project in 2011, the subproject selection process,
which had driven some of the delays, became better organized. To keep a sustainable number of
subprojects in the pipeline, USAID Mission officials planned a “tranche” allocation about every
4 months. According to a former USAID official, a tranche supported anywhere from 15 to 25
subprojects per province on a wide array of activities designed to support the provincial LGCD project.
Furthermore, with the experiences gained in the LGCD’s early years, USAID improved its subproject
approval process. This included identifying subproject types that should not be funded by LGCD, such as
agriculture, water resource, and large infrastructure interventions.

Less than Half of LGCD Funds Were Spent on Subproject Activity

Over the life of the program, USAID reduced the amount of funds that it expected would be spent on
subproject activity. The LGCD task orders contained ceiling prices and, within these ceilings, budget line
items for various types of costs. The ceiling prices for ARD and DAI’s task orders included budget line
items for workdays ordered by USAID under the task orders, security, and life support (including housing
and other living expenses). The ceiling prices also included budget line items for subgrants, commodities,
and infrastructure programs—the line items most directly related to individual LGCD subprojects and,
therefore, most likely to reach subproject beneficiaries. The original task orders envisioned that the
majority of contractor costs would be for these three line items. However, in subsequent modifications,
USAID reduced the proportion of these costs to less than half of the total LGCD ceiling price.

We determined that 36 percent and 42 percent of expenditures under the contracts for DAI and ARD,
respectively, were for subproject activity. 9 Taken together, ARD’s and DAI’s labor costs and all other
costs (except security) 10 constituted the largest percentage, at 50 percent for both ARD and DAI. Security
costs comprised 8 percent of ARD’s costs and 14 percent of DAI’s costs. (See table 2.)


        Table 2: Proportion of LGCD Contractors’
        Costs by Category
        Category                       ARD           DAI
        Subproject Activity            42%           36%
        Labor costs                    26%           21%
        Security Costs                  8%           14%
        All other costs                23%           29%
        Source: SIGAR analysis of ARD and DAI cost data.
        Note: Totals affected by rounding.



USAID Struggled to Define Stabilization and Expected Outcomes of LGCD

Our review of LGCD contract documents, interviews with contract and USAID personnel, and
independent evaluations of the program shows that defining stabilization programming and assessing
what it could realistically achieve posed a significant challenge. For example, a representative for one of
the LGCD contractors told us that because USAID, the PRTs, and the contractors had little experience in


9
 For ARD, the invoiced budget line items most closely aligned with subproject activity were the subgrant program,
the commodities program, and the infrastructure program. For DAI, they were the program activities and grants
budget lines items.
10
   Because ARD and DAI invoiced costs differently, we grouped all remaining costs, except security, together and
labeled them “all other costs.” These costs included other direct costs, travel, allowances, and general and
administrative costs.
SIGAR Audit-12-8 Development / Local Governance and Community Development                                  Page 6
the area of stabilization, and because LGCD was essentially an “experimental program,” it was difficult
for everyone to agree on outputs and outcomes.

The Checchi report also found that the contractors, USAID, and often the PRT commanders lacked a
common understanding of the stabilization component of the program. The report noted two different
concepts of local stability initiatives in Afghanistan: (1) community development work in non-secure
areas or (2) counterinsurgency work, using community development principles. Checchi advised that
stabilization initiatives needed to be precisely defined and needed to include a realistic explanation of the
Afghan context, with examples of what local stability initiatives are and what contractors are expected to
deliver. The report also noted that, given the inherent risk of stabilization programming, a common
understanding of local stability initiatives shared by USAID and contractors was essential.

As noted above, USAID stated in 2006 that the primary expected outcome of LGCD was to stabilize
unstable areas. Similarly, the Checchi report stated that the immediate focus and goals of LGCD’s local
stability initiatives should be to bring a modicum of stability to volatile areas. However, in September
2009, when LGCD was reconfigured to align it with the U.S. COIN strategy, USAID reached a
conclusion that LGCD required “more realistic objectives and results.” Furthermore, in the March 2010
modification of LGCD, USAID noted that many factors outside of LGCD’s control contribute to
instability, and that a linear shift from instability to stability does not always occur. As a result, USAID
adopted three new intermediary results for the program: (1) root causes of instability are identified and
local solutions enabled, (2) GIRoA officials provide leadership to strengthen stability and development in
target communities, and (3) communities become principal stakeholders in creating stability and
development alternatives to insurgent paradigms.

A comparison of USAID documents from 2011 with earlier documents on LGCD further demonstrates
the extent to which USAID’s conception of stabilization changed over time. The original LGCD task
orders emphasized the importance of development and employment projects in achieving success with
stabilization activities. For example, they stated that short-term stabilization involves identifying and
engaging populations that are vulnerable to recruitment into militant groups, such as alienated,
uneducated, and unemployed youth, and that violence linked to a lack of development had created an
environment of generalized instability. The task orders offered examples of activities that the contractors
could undertake to promote stability, including using development projects as an incentive for different
groups or tribes to negotiate truces or ceasefires and employment activities for at-risk young people.
A 2011 USAID presentation, however, appears to call into question the value of these activities in
contributing to stability. Specifically, the presentation states that the idea that “economic development
and modernization foster stability” and that “more jobs means less support for insurgents” are “myths.”

USAID Had Difficulty Measuring Program Results

In addition to struggling to clearly define LGCD and its expected outcomes, USAID faced challenges
developing and implementing an accurate and robust method for measuring the program’s effectiveness.
As noted earlier, LGCD performance indicators and targets were established in PMPs agreed upon by
both the contractors and USAID through a collaborative process. The first PMP, jointly developed by
DAI and ARD, was approved by USAID in May 2007. 11 It contained seven indicators that were aimed at
measuring results across a broad area of LGCD project activity. However, in December 2008, USAID
instituted a “wholesale revision” of the LGCD PMP for DAI, noting that the PMP initially approved in
May 2007 did not adequately capture and measure ongoing LGCD activities in the south and east of
Afghanistan. USAID also acknowledged that the initial attempt to define indicators common to activities
in both the south/east regions of Afghanistan and the north/west regions “proved inadequate” because the
two programs operated in different security and development environments, resulting in varying
approaches to program implementation. The revised PMP contained 16 performance indicators and
11
  The task orders for both contractors were awarded in October 2006, 7 months earlier.
SIGAR Audit-12-8 Development / Local Governance and Community Development                              Page 7
targets linked to the task order work components, which according to USAID were more appropriate for
the LGCD project.

The concerns that USAID identified in the 2008 PMP were also addressed in the 2009 USAID OIG
report. For example, the OIG reported that DAI’s performance targets did not realistically reflect what
the Mission intended to achieve under LGCD and that the results also did not represent the activities for
which a significant amount of funding was disbursed. The OIG concluded that these issues weakened the
link between funding, activities, and desired results and could ultimately impair decision making at the
stakeholder level.

In December 2009, USAID approved a third LGCD PMP for DAI. It was designed to reflect the
program’s new alignment with the COIN strategy and clarify how LGCD measured the outputs and
outcomes of its activities. It contained 15 indicators—6 linked to specific task order work components,
2 to the overall assistance objective, and 7 common indicators. It also announced that the program would
partner with a third-party research institution in Afghanistan to administer perception surveys to targeted
communities. These surveys were conducted in 2010 and, aside from a few PMP indicators related to
levels of stability, constituted USAID’s first serious effort to measure the effect of LGCD on stability. 12
The surveys gauged the opinions of 5,411 Afghans in 123 villages across 64 districts regarding their
perceptions of stability. Villages were chosen randomly and all were located within one kilometer of
LGCD projects that had been implemented within 3 months of the survey. However, due to security
issues, over a quarter (33) of the originally selected villages had to be replaced with more secure villages.
As a result, DAI concluded that the inability to extract data from areas that were heavily controlled by the
insurgency had “introduced a systemic bias” in the sample.

Beginning in 2010, the USAID Mission and the Counterinsurgency Training Center-Afghanistan
developed the District Stabilization Framework (DSF) to identify root causes of instability at the local
level; develop activities that specifically addressed these sources of instability; and measure the impact of
programming, as well as overall stability trends, in areas where activities were being implemented. DSF
was promoted through a USAID Mission order, guidance from the Commander of the International
Security Assistant Forces, Secretary of Defense guidance, and a fragmentary order issued by the Regional
Command-East.

However, in 2011, USAID acknowledged that the degree to which the DSF was being used and to what
effect remained in question. It issued a Request for Task Order Proposal (RFTOP) 13 for an independent
contractor to measure the impact of stabilization initiatives. The RFTOP stated that, while past efforts to
provide quantified and scientifically rigorous measures of stabilization impact had met with some success,
a more data-rich and geographically detailed approach was necessary to systematize an understanding of
stabilization in the context of Afghanistan. For example, according to the RFTOP, the PMP for
USAID/Afghanistan’s Stabilization Unit (which oversaw LGCD, among other programs) was output-
oriented and lacked a clearly articulated theory of change consistent with the underlying logic of
individual unit programs. The RFTOP called for, among other things, a review of previous or ongoing
efforts to measure stabilization impacts and trends in Afghanistan, including the DSF and monitoring and
evaluation efforts associated with LGCD.

A senior official we met with from USAID’s Stabilization Unit in July 2011 described similar concerns to
those outlined in the RFTOP. This official told us that USAID needed to invest in a broader monitoring
and evaluation effort for LGCD and similar programs, noting a tendency to report on outputs rather than
outcomes. He also said that stabilization efforts and project implementation in an active combat
12
   Examples of LGCD stability measures, aside from the perception surveys, included the number of people trained
in conflict mitigation/resolution and the percent of LGCD priority districts with follow-on build (that is,
development) activities.
13
   RFTOP-SOL-306-12-000001 was issued on December 1, 2011.
SIGAR Audit-12-8 Development / Local Governance and Community Development                                  Page 8
environment were new for USAID in Afghanistan, and that these programs were in need of an evaluation
to determine the extent to which they were meeting the intended objectives.

Evaluations Indicate that LGCD Had Mixed Success

Although USAID had difficulty measuring program outcomes, some evaluations of LGCD are available.
These evaluations indicate that the program produced mixed results. As explained above, the contractors
were required to report their progress in meeting performance indicators and targets contained in the
PMPs. These indicators were largely output-oriented. Examples of indicators were the number of target
institutions (i.e., local Afghan development groups) reporting publicly on service delivery performance
improvements, the number of institutions equipped with information technology or internet connection,
the number of key facilities or other infrastructure rehabilitated, and the number of government officials
trained. As shown in table 3, the contractors’ ability to meet their targets varied over time. Appendix IV
contains more detail on LGCD performance indicators and the extent to which they were met in 2009,
2010, and 2011.


        Table 3: Summary of Contractor Performance in Meeting
        LGCD Program Targets, Fiscal Years 2008-2011

                                  Fiscal       Targets          Targets        Success rate
        Contractor
                                  yeara           met           not met          (percent)

        ARD                       2008               4                2                67
        ARD                       2009              12               12                50
        DAI                       2008              13                1                93
        DAI                       2009              12                3                80
        DAI                       2010               7                8                47
                                        b
        DAI                      2011               12                3                80
        Source: SIGAR analysis of contractors’ annual reports to USAID.
        Notes:
        a
         Reporting did not fully measure success in achieving targets in 2007.
        b
          First 3 quarters of fiscal year 2011; the project ended in August 2011.

Independent evaluations of the program also pointed to mixed results. For example, USAID OIG
reported that the project achieved a number of planned results, such as on-the-job training for government
staff, assistance to ministries in developing requests for donor funds, and construction of a school in
Nangarhar Province that brought two competing tribes together for a common project. However, the OIG
also reported that the project’s overall success seemed highly questionable.

Checchi reported that LGCD had a minimal impact on improving stability and mixed results in achieving
task order goals. Specifically, the report stated that “the program (LGCD) has not met its overarching
goal of extending the legitimacy of the Afghan government nor has it brought government closer to the
people or fostered stability.” Checchi also reported on progress against the four original task order
components. It found that while the project did not meet its overarching objectives or outcomes, the
evaluation team reported pockets of success by both contractors within each of the four program
components’ outputs. In Checchi’s assessment, the first component—supporting local public
administration and governance—had the most success. Checchi found that a multi-faceted package of
initiatives raised the capacity of provincial and district government officials. The second component—
promoting community mobilization and development—had intermittent success. While several
subprojects helped foster links between community and government, Checchi also reported that a

SIGAR Audit-12-8 Development / Local Governance and Community Development                           Page 9
significant number of community development subprojects had neither achieved their intended objectives
nor furthered the LGCD’s ultimate goals of bringing communities closer to government and introducing
stability. The third and fourth components regarding local stability initiatives and assistance to PRTs also
had a mixed record of success. Checchi reported that ARD and DAI admitted to poor implementation of
local stability initiatives over most of the program period that it reviewed.

The perception surveys of villagers, which started in 2010, similarly pointed to mixed results. Of the
110 originally selected villages with complete results, 59 were seen as “wins” for improvements in
stability, 24 were “stalemates,” and 27 were viewed as “losses.” However, as noted above, these results
were somewhat biased because 33 of the originally selected villages had to be replaced with more secure
villages. DAI missed its target in 2010, but surpassed it in 2011. Specifically, in fiscal year 2010, the
target was for 40 percent of respondents to view that stability in their community had improved, but only
35 percent of respondents said that stability had improved. In fiscal year 2011, USAID reduced the target
to 35 percent, and 42 percent of respondents said stability had improved. According to DAI, stability
improvement responses should be approached with some caution because the trend was in line with the
reduction in violence during the winter months when insurgents typically reduce violent engagement.
DAI also noted that perceptions of improved stability may thus be due to factors outside of LGCD’s
control such as a surge in military forces. However, DAI stated that the improvement in stability
perceptions in 2011 showed a positive trend in the success of the program.

DAI used a regression analysis with the results of the survey to determine which types of LGCD activities
were highly correlated to improvements in stability perceptions. The results pointed to the GIRoA’s
ability to provide security, improvements in GIRoA’s service delivery, access to food, and GIRoA’s
responsiveness as the four conditions most connected to stability improvements. Activities that did not
have a high correlation with improvements in stability included improved health, increased work
opportunities, rises in monthly income, and land ownership. The survey concluded that while most of
LGCD focused on short-term cash-for-work projects, long-term employment generated by improved
conditions for agriculture is more effective in improving stability and should be the greater focus for
counterinsurgency and development efforts.

In June 2011, USAID issued a fact sheet on LGCD, which stated that the project had many successes,
including the

    •   completion of more than 2,500 community stabilization projects, representing an investment of
        $109 million;
    •   generation of immediate short-term employment totaling 1.5 million employment days through
        cash-for-work activities; and
    •   completion of significant and lasting improvements in rural infrastructure, including gravel roads,
        footbridges, and irrigation systems.

USAID also provided success stories showing that individual subprojects benefitted local villages and
sometimes resulted in their rejection of the Taliban. For example, in Uruzgan province, LGCD helped
villagers returning to homes damaged in heavy fighting to rebuild, plant crops, and restart their lives. In
Kapisa province, an LGCD project to clear snow from 11 kilometers of a major commerce route provided
short-term employment. The snow clearing provided the men a source of winter income and created an
opportunity for the community to meet and discuss future development initiatives with their local
government representatives. A few weeks after the completion of the project, the villagers announced
that they would no longer tolerate a Taliban presence in the valley and would fight to protect future
reconstruction and development efforts.

Because USAID and DAI assessments of LGCD’s effect on stability were principally based on the
perception surveys, we sought to ascertain what broader data indicated regarding stability in the locations
SIGAR Audit-12-8 Development / Local Governance and Community Development                           Page 10
where LGCD focused its activities. Although the effect of LGCD on security levels cannot be isolated,
violence data can be used as one indicator of stability. We looked at the level of violence as measured by
enemy-initiated attacks, incident reports, and other studies that discussed the effect of development
activities on security. In the absence of quantitative data at the village level and because the task orders
envisioned improved stability at the district and province level, we looked at data at those levels.

Our analysis of Defense Intelligence Agency data showed that each of the eight provinces with the most
LGCD activity experienced increases in the level of violence between 2006 and 2010, ranging from
almost two to twenty times. In these eight provinces, enemy-initiated attacks increased by 50 percent
between 2006 and 2010, a higher increase than throughout the country for the same period.

We also obtained and reviewed unclassified coalition data on violent incidents at the district level. The
data included violent, criminal, and coercive events, such as kidnapping, improvised explosive devices
detection and explosion, and small arms fire. We focused on the eight provinces that had the most LGCD
activity and, within those provinces, the eight districts with the largest concentration of LGCD activity.
Our review showed significant increases in reported incidents from 2006 through 2010. For example,
249 percent more incidents were reported in those eight districts in 2010 than in 2006.

When we discussed this violence data with USAID officials, they stated that attack data is one area to
consider in assessing stabilization efforts, but it is difficult to associate this information with a specific
stabilization program or to determine if the impact is low or high. They also noted that stability trends at
the province level were not an accurate reflection of LGCD effectiveness because the project did not have
activities in every district of a province.

Independent studies of other development programs aimed at stabilization in Afghanistan also raise
questions about the extent to which these types of programs can lead to positive results. We reviewed a
number of studies undertaken by the Senate Foreign Relations Committee, the U.S. Army, and a variety
of nongovernmental entities, including Tufts University and the Massachusetts Institute of Technology.
The studies found little evidence that development programs aimed at promoting stability have been
successful. Appendix V contains summaries of the studies.


USAID WAS LIMITED IN ITS ABILITY TO MONITOR LGCD ACTIVITIES

USAID’s ability to monitor LGCD was hampered by a number of factors. USAID monitored subprojects
through a combination of COR field visits, reports from its field offices, and third-party monitoring. In
programs like LGCD the U.S. government accepts a certain amount of risk because its ability to assure
that contractor costs are appropriate is limited by the difficulty in getting to subproject sites. This makes
obtaining complete supporting documentation from contractors for their invoices and conducting financial
audits of contractor costs on a timely basis particularly important. However, we found that the LGCD
task orders did not require contractors to submit supporting documentation for their invoices.
Furthermore, the Defense Contract Audit Agency (DCAA), which USAID uses to audit the LGCD
contractors’ incurred costs, is more than a decade behind in auditing DAI’s costs and has not completed
reports on ARD’s costs past fiscal year 2006, when LGCD began. USAID only recently committed to
contract for a financial audit of the LGCD project in 2012.




SIGAR Audit-12-8 Development / Local Governance and Community Development                             Page 11
USAID Staff Used a Variety of Techniques to Monitor Projects, Including Reports and Limited
Field Visits

USAID guidance for administering contracts assigns the bulk of contract administration to the COR,
including monitoring performance, coordinating with the contracting officer, and problem resolution.
USAID’s supplement to the Federal Acquisition Regulation stipulates that monitoring performance is a
function of contract administration.14 Performance monitoring requires that USAID personnel,
particularly the COR, maintain adequate knowledge of contractor activities and progress in order to
ensure that USAID's objectives, as stated in the statement of work, are achieved.

USAID has reported limitations in its ability to monitor contractor performance in Afghanistan for almost
a decade. In its 2011 corrective action plan, required by the Federal Managers’ Financial Integrity Act,15
USAID reported that, as early as 2003, restrictions on travel outside the U.S. embassy compound,
resulting from Afghanistan’s security situation, limited USAID CORs from “adequately monitoring the
quality and timeliness of outputs produced by contractors and others.” Several CORs with whom we met
confirmed this limitation. 16 Although the LGCD project started in October 2006, one COR reported that
it was not until June 2008 that he received approval to travel to LGCD contractors’ offices located outside
the U.S. Embassy compound and PRT locations. Another COR, who served between 2008 and 2010,
indicated that some provinces were too violent for USAID and its contractors to monitor LGCD activities.
A third COR, serving in 2011, explained that he could only travel outside the embassy compound 6 to
9 days a month, due to security restrictions.

To help address the monitoring limitations noted in the internal control reports, USAID authorized
alternative monitoring methods to keep Mission personnel safe while satisfying the need to visit project
sites and meet with beneficiaries of development assistance. These methods included photographic
evidence requirements; the use of local and/or third-party monitoring; engagement with other U.S.
government agencies (that is, regional security officers or U.S. military); the use of other technology for
consultation or oversight; the establishment of flexible targets, results, and approval timelines; and
cooperation with other donors. 17

USAID’s Contracting Officers typically designate CORs to assist in administering contracts.18 According
to the Contracting Officer’s designation letter for the LGCD project, the COR’s performance monitoring
responsibilities included the approval of monitoring plans to ensure consistency with contract terms and
conditions. Within limits, the COR can use other USAID and external parties to assist in contract
monitoring. For example, other parties can conduct fact-finding, provide analyses or interpretations of
technical requirements, or make recommendations for the COR. We found that the CORs not only
conducted their own visits, where possible, but took advantage of the alternative methods described above
by relying on other USAID personnel, the contractors, and independent third parties to help monitor
LGCD activities.

In March 2010, USAID modified DAI’s task order to advise DAI that USAID was appointing activity
managers to assist the COR with monitoring work under the task order and, where possible, inspecting all


14
   USAID Acquisition Regulation 742.1170-1
15
   To comply with the Federal Managers’ Financial Integrity Act of 1982, USAID requires its missions to annually
report on significant internal control deficiencies and the action plan to correct the noted deficiencies.
16
   Two and five CORs covered the work of ARD and DAI, respectively, over the life of the LGCD project.
17
   USAID’s Automated Directives System (ADS) 202.3.6.4 contains a complete list of approved alternative
monitoring methods in high-threat environments.
18
   48 C.F.R. § 2901.603-71 authorizes the Contracting Officer to designate a COR to assist with fulfilling contractual
responsibilities.
SIGAR Audit-12-8 Development / Local Governance and Community Development                                     Page 12
deliverables prior to handover to the final beneficiary. 19 These representatives were considered the “eyes
and ears” of USAID in the field. They took pictures of LGCD subprojects; conducted site visits or
directed local staff to visit sites, where possible; met with the LGCD contractor in their areas of
responsibility at least weekly; and provided monitoring reports of field visits by email or phone. To
better understand the activity manager’s role, we reviewed three subproject monitoring reports—each
from a different province—and found consistency in coverage and format. The reports, which were
documented on a standard form, covered a ceremonial handover of furniture to local government officials
and members of a local woman’s association, a graduation ceremony of women trained in fruit and
vegetable processing and kitchen hygiene, and a progress report on an infrastructure subproject. All three
reports included a narrative and photographs of the day’s events. The narrative for the infrastructure
subproject also included the subproject’s background, objectives, and expected outcome, as well as
findings, testimonials from beneficiaries, and recommendations.

CORs also used LGCD contractor data to help monitor project activities. In addition to periodic reports,
USAID had access to the contractors’ project databases. DAI’s database played a central role in program
monitoring by providing CORs and activity managers with electronic access to information on LGCD
subprojects. Although useful, the quality of the available data depended on contractor personnel and had
limitations. DAI informed us about possible differences between its database and its paper files, which
DAI deemed as the official file for subproject activity. DAI’s database showed that it had visited 885 of
its 2,714 subprojects. 20 DAI said that not all site visits were recorded in its database, but did not provide
the number of visits that were recorded elsewhere. Furthermore, DAI reported “allegations of gross
employee misconduct that included the falsification of monitoring and site visit reports.” 21

When conducting site visits to selected LGCD subprojects to assess their status, we relied upon
contractor-provided data to locate the sites. Our LGCD subproject visits took place in Logar and
Nangahar Provinces.

     •   In Logar Province, three subprojects provided furniture and/or computer equipment, and we
         verified that the items were at the sites and in use. A fourth subproject was rehabilitation of a
         boundary wall, which appeared to be well maintained and in good condition.
     •   In Nangahar Province, we attempted to visit three LGCD subproject sites, but could not locate
         two of them based on the information in DAI’s project files. One subproject, a boundary wall,
         was not at the global positioning coordinates identified in the contractor’s reports. In the other
         instance, although we observed a canal at the identified coordinates, it did not match the
         information in the subproject file. DAI officials subsequently told us that that the coordinates in
         the project files have been corrected. They also subsequently visited the two sites and provided us
         with information showing that the subprojects at those sites were completed. The third site we
         visited, a gravel road and associated culverts and bridges, had been completed, but had degraded
         in places.




19
   In October 2010, USAID had 40 activity managers for the LGCD project. ADS 202.3.4.3 authorizes USAID to
appoint activity managers to perform a wide range of project management, oversight, and coordination tasks.
Activity managers can be foreign service nationals, personal service contractors, third-country nationals, or other
USAID staff.
20
   DAI undertook 2,714 subprojects, of which 2,451 were completed and the others were cancelled or terminated.
21
   DAI reported this in its final report on LGCD, encompassing October 2006 through August 2011.
SIGAR Audit-12-8 Development / Local Governance and Community Development                                     Page 13
USAID’s Ability to Verify Contractor Requests for Payment was Limited

USAID’s CORs for LGCD took several steps to verify the LGCD contractors’ requests for payment (i.e.,
invoices), 22 but were hindered by limited information and difficulties visiting project sites.

According to USAID guidance, the COR should perform several financial management functions to
determine (1) if goods or services USAID received conform to those specifically requested; (2) if the
services USAID requested have been rendered as described in the billing, or if the contractor has
delivered goods in an acceptable condition; and (3) that the payment is in order. 23 The guidance also
requires the COR to submit a completed administrative approval form to USAID’s paying office within
5 workdays of the dated form. 24 Among other things, this form contains boxes for the COR to
acknowledge that he or she visited project sites and confirm that goods and/or services had been received.

For the LGCD project, CORs were assigned to review each invoice. However, the CORs’ ability to do so
was hindered because neither the contractors’ task orders for LGCD nor the overall contract under which
the task orders were issued required DAI to submit documentation in support of invoices. USAID policy
is to request only the documentation that the payment clause in the contract requires. 25

DAI submitted 75 invoices between December 2006 and July 2011, ranging from under $1 million to
more than $12 million. Our assessment of the supporting data for three of these invoices (processed in
2009, 2010, and 2011) demonstrates the difficulty that CORs can face reviewing invoices when the
supporting documentation is incomplete. Although the task order did not require the submission of
supporting documentation, the contractor did submit support with each invoice. However, this support
was incomplete. As a result, we could not match over $1 million in the invoices for subproject activity
with their underlying support. Our analysis of each of the three invoices, which is illustrative and not a
representative sample, follows.

     •   Of the $7.5 million requested for services provided in March 2009 and contained in DAI’s
         April 19, 2009 invoice, over $4.9 million was billed for grants, commodities, infrastructure
         activities, local service agreements, and special initiatives. The supporting documentation
         provided sufficient details to support billings for about $3.4 million of the $3.8 million
         categorized under commodities, infrastructure, local service agreements, and special initiatives,
         and $1.1 million in grant activities. However, the remaining $400,000 could not be directly
         attributed to any subproject activity within these categories. The invoice was accompanied by
         USAID’s administrative approval form and checklist. Dated April 19, 2009, it showed that over
         the past 3 months the COR had made 6 field visits to project sites, visited the main office of the
         implementing agency 7 times and discussed project implementation, and met with counterparts
         12 times regarding contractor performance and/or commodity deliveries.
     •   DAI’s invoice for services provided in August 2010 amounted to just over $10 million, of which
         $3.1 million was billed for program activities and grants. The supporting data provided sufficient
         details to attribute $2,039,434 and $510,142 to program activities and grants associated with
         LGCD subprojects covered by the invoice. However, we could not attribute attribute $595,530
         invoiced for program activities to any subproject activity. The September 16, 2010,
         administrative approval form and checklist accompanying the invoice showed that over 3 months
         the COR had made 3 field visits to project sites and observed project implementation, had visited

22
  A “contractor request for payment” is also considered a “voucher” or an “invoice submission.”
23
  ADS Chapter 630.
24
   The Prompt Payment Act, 31 U.S.C. Chapter 39, requires agencies to pay commercial obligations within certain
time periods and to pay interest penalties when payments are late.
25
   ADS Chapter 630.3.2.3
SIGAR Audit-12-8 Development / Local Governance and Community Development                                Page 14
         the main office of the implementing agency 12 times and discussed project implementation, and
         met with his counterparts 20 times regarding contractor level performance and/or commodity
         deliveries.
     •   Of the $6.4 million invoiced by DAI for services provided in March 2011, $186,394 was
         attributable to program activities and $171,067 to grants. Although the supporting documentation
         provided sufficient details for the grant activity, only $179,950 of the program activities costs
         could be directly attributed to the subproject activities covered by the invoice. The remaining
         $6,444 could not be linked to subproject activity. The April 13, 2011, administrative approval
         form and checklist 26 accompanying the invoice showed that over 3 months the COR had made
         2 field visits to project sites and observed project implementation, had visited the main office of
         the implementing agency 12 times and discussed project implementation, and met with
         counterparts 12 times regarding contractor level performance and/or commodity deliveries.

USAID faced additional challenges assessing the invoices. Although CORs are required to assure that
goods and services are received as part of the invoice approval process, the large number of LGCD
subprojects covered by the invoices, coupled with just one COR at any time and the challenges of travel
in Afghanistan, made it impossible to visit all subprojects within the periods covered by the invoice. For
example, the administrative checklist for approving DAI’s August 2010 invoice potentially covered up to
214 subprojects, and DAI overall was actively working on 608 LGCD subprojects in 22 provinces.

When we asked two former CORs about their process for reviewing invoices, they stated that given the
5 workdays available to them, they reviewed the invoices’ support against the summary data and mostly
relied on their understanding of contractor activity to attest that goods and services were received by
USAID. This understanding was derived from the CORs’ access to data in DAI’s project management
system, the approval process for LGCD subproject activity, and the many meetings, telephone
conversations, and reports received from USAID field personnel and from PRTs, contractors, and other
representatives.

In discussing our analysis with USAID officials, they noted that they complied with USAID invoice
review procedures applicable throughout USAID. Furthermore, one LGCD COR noted that the COR
review is not an analytical review of subproject costs. On an invoice for this type of contract, the COR
provides administrative approval that goods and/or services specified in the invoice were received and
conform to the requirements of the agreement between the vendor and USAID. USAID’s policy also
relies on annual audits of contractors to obtain reasonable assurance that they are claiming only eligible,
supported costs.

Financial Audit of LGCD Planned for 2012

We found that USAID delayed arranging a financial audit of LGCD. DCAA audits are intended to be a
key control to help ensure that prices paid by the government for needed goods and services are fair and
reasonable and that contractors are charging the government in accordance with applicable laws, the
Federal Acquisition Regulation, Cost Accounting Standards, and contract terms. The Federal Acquisition
Regulation states that normally, for contractors other than educational institutions and nonprofit
organizations, DCAA is the responsible Government audit agency. 27 USAID has a memorandum of
understanding with DCAA that states that DCAA will audit U.S. for-profit firms for which DCAA is
cognizant. When DCAA cannot be responsive to USAID’s needs for an audit, USAID’s directives state



26
   USAID revised the checklist in March 2011, which replaced the CTO reference with “AOTR/COTR” or the
Agreement/Contracting Officer’s Technical Representative.
27
   Federal Acquisition Regulation 42.101 (b).
SIGAR Audit-12-8 Development / Local Governance and Community Development                            Page 15
that the USAID OIG must contract with a non-Federal public accountant or use its own audit staff to
perform the audit. 28

Although DCAA is more than a decade behind in its incurred cost audits of DAI and 5 years behind in
such audits for ARD, USAID until recently had not made other arrangements to obtain incurred cost
audits as allowed by its directives. The most current USAID-requested audit of DAI incurred costs was
for the years 1999 through 2001, a period that does not cover LGCD activities. DCAA had agreed to
provide USAID with a report covering DAI’s costs for 1999 by January 30, 2012, and for 2000 and 2001
by March 30, 2012. The most current DCAA audits of ARD incurred costs are for fiscal years 2005 and
2006 and were issued on August 29, 2008, and September 24, 2008, respectively. USAID informed us in
November 2011 that DCAA had yet to start incurred cost audits of ARD for fiscal years 2007 and
beyond. 29

Another tool to assure that incurred costs are appropriate is contract close-out audits, which are done after
contracts are completed. A critical step to closing out contracts is to determine how to allocate a
contractor’s general administrative and overhead costs to each of its contracts. This step cannot be
completed until the indirect cost rate for the contractor’s general administrative and overhead costs for the
final year of contract performance is settled and the final price of the contract is determined. USAID
policy states that an incurred cost audit of a contractor would satisfy the close-out audit requirement.
Contract close out has not begun for the LGCD contracts and could take years to complete.

A December 2011 USAID OIG report challenging $6.6 million in DAI incurred costs, mostly involving
deficient procurement practices, underscored the importance of incurred cost audits. 30 The OIG reported
that in March 2011, it received a copy of a DAI internal audit report, dated September 23, 2009, detailing
financial and internal control problems occurring from August 2008 through August 2009. DAI had not
provided this report to USAID or returned any funds to USAID related to questioned expenditures
identified in the report. OIG conducted its review to assess selected problems raised in the internal audit
report and to determine whether DAI incurred questionable costs on the project. The OIG recommended
that USAID/Afghanistan determine the allowability of and, as appropriate, recover the questioned costs
from DAI. USAID/Afghanistan agreed to review the allowability of the questioned costs and initiate
recovery of any unallowable costs with a February 28, 2012, target date for final action. The OIG also
recommended and USAID/Afghanistan agreed to contract for a financial audit of DAI’s LGCD project to
determine whether all the costs charged to USAID were reasonable, allowable, and allocable. In addition,
USAID/Afghanistan indicated that it would include a closeout financial audit of the Local Governance
and Community Development Project in its fiscal year 2012 audit management plan. The target date for
final action is May 31, 2012.

USAID has taken broader steps through its Accountable Assistance for Afghanistan initiative. One step
is to increase financial controls through a joint program with the USAID OIG to audit all locally incurred
costs of program-funded contractors. Audits will be performed by internationally-accredited regionally
based audit firms and checked by USAID’s OIG. USAID/Afghanistan in another step is also increasing
its project oversight through the establishment of on-site monitors in USAID field offices for project
monitoring. Each USAID project will be assigned an on-site monitor who will provide real-time data to
contract staff in Kabul on project performance and accountability.



28
   ADS, Chapter 591, “Financial Audits of USAID Contractors, Recipients, and Host Government Entities,”
591.3.1.2.
29
   DCAA is behind in conducting numerous financial audits for USAID. We have a separate audit underway of the
status of financial audits of USAID’s contractors.
30
   USAID OIG, Review of Responses to Internal Audit Findings on the Local Governance and Community
Development Project (Report Number F-306-12-001-S, December 26, 2011).
SIGAR Audit-12-8 Development / Local Governance and Community Development                              Page 16
CONCLUSION

Although LGCD has ended, its implementation raises important questions about USAID’s significant
investment in stabilization efforts in Afghanistan. We identified a number of challenges that the program
faced, including implementation delays; higher contractor operating costs than anticipated; and, perhaps
most notably, difficulties defining and measuring outcomes. Furthermore, evaluations conducted by both
the contractors and independent entities indicate that LGCD had, at best, mixed results. Notwithstanding
these challenges and little clear evidence of success, USAID chose to significantly increase funding for
the program and extend its life. This decision raises concerns about SIKA, a stabilization program on
which USAID expects to spend at least $400 million in coming years.

In programs like LGCD, the U.S. government accepts a certain amount of risk because its ability to assure
that contractor costs are appropriate is typically limited by the size and geographic scope of the program,
coupled with logistical and security challenges that limit travel. Given this risk, the absence of a
requirement in the LGCD task orders for contractors to submit support for invoices is problematic.
Unless USAID institutes stronger requirements, it will continue to hamper CORs’ ability to conduct
thorough oversight of ongoing and future contracts.


RECOMMENDATION

SIGAR remains concerned about the extent to which USAID will successfully define and measure
outcomes for its stabilization activities, particularly SIKA. However, because USAID has issued an
RFTOP to, among other things, measure the impact of stabilization initiatives and review previous and
ongoing stabilization efforts, we are not making a recommendation related to this issue at this time.

To strengthen the CORs’ oversight of contractor costs and allow CORs to link invoiced costs to the goods
and services to be provided, SIGAR recommends that the Mission Director, USAID/Afghanistan, take the
following action:

    1. Direct contracting officers to ensure the SIKA contracts and others, as appropriate, require
       contractors to provide complete supporting detail with invoices.


COMMENTS

In commenting on a draft of this report, USAID discussed the challenges of undertaking stabilization
activities, took exception to several findings, and expressed the view that our recommendation is
unnecessary (see appendix VI). USAID stated that stabilization is a different development approach and
that its stabilization efforts in Afghanistan and experiences in other similar environments led to the
USAID Administrator’s January 2011 Stabilization Guidance. USAID also said that, in light of the
nature of stabilization programming, our highlighting of “mixed results” is understandable and that our
findings provide USAID/Afghanistan with additional insights as the Mission continues to adapt and refine
its approach for supporting critical U.S. national security interests. We agree that stabilization efforts in
Afghanistan are challenging and commend USAID for taking steps to improve them.

Regarding our recommendation, USAID stated that its current policy guidance already addresses our
concern about strengthening oversight of contractor costs. However, USAID’s policy guidance depends
on annual audits of contractors’ costs to provide reasonable assurance that contractors are only claiming
eligible, supported costs for reimbursement. Because USAID has a significant backlog of incurred cost
audits, relying on this policy is not sufficient to address our concerns. In programs like LGCD, the risk
the U.S. government accepts is particularly high, and additional cost verification measures are necessary.
USAID further stated that, if we retained the recommendation, it should be addressed to the USAID
SIGAR Audit-12-8 Development / Local Governance and Community Development                             Page 17
Administrator because it pertains to the entire agency. Although our recommendation may have broader
applicability, we addressed this recommendation at the Mission level given the unique risks posed by
stabilization programs in Afghanistan. Therefore, we kept the recommendation addressed to the Mission
Director. If USAID believes that the recommendation has broader applicability, we welcome its efforts to
apply it throughout the agency.




SIGAR Audit-12-8 Development / Local Governance and Community Development                       Page 18
APPENDIX I: SCOPE AND METHODOLOGY

This report presents the results of the Office of the Special Inspector General for Afghanistan
Reconstruction’s review of the U.S. Agency for International Development’s (USAID) Local Governance
and Community Development (LGCD) project. LGCD, which USAID has described as its flagship
stability program, was approved in March 2006 with the principal goal of stabilizing unstable areas
throughout Afghanistan and ended in August 2011. To implement LGCD, USAID competitively
awarded cost reimbursable task orders to two contractors in October 2006. The task order for LGCD
work in the northern and western provinces of Afghanistan was awarded to Associates in Rural
Development, Inc. (ARD), while the task order for work in the southern and eastern provinces was
awarded to Development Alternatives, Inc. (DAI). This report assesses (1) the cost and outcomes of the
LGCD project and (2) USAID oversight of the project.

To examine cost and outcomes of the LGCD project, we met with officials from USAID headquarters in
Washington, D.C.; USAID/Afghanistan in Kabul, Afghanistan; and the two construction contractors,
ARD and DAI. We reviewed the task order documentation for the period October 2006 through August
2011, including the original LGCD approval document; associated contracts and task orders and
modifications to them, including the statements of work; USAID LGCD contract files; contractor
performance management plans (PMP) and quarterly, annual, and final reports reviewed and approved by
USAID; and reports on LGCD prepared by USAID’s Office of Inspector General and a third party
assessment contracted by USAID. The contractor conducting that assessment, Checchi and Company,
Consulting, stated that it held more than 250 interviews with various stakeholders, beneficiaries,
contractors, and Provincial Reconstruction Team offices and conducted more than 50 site visits. We also
reviewed ARD and DAI invoice and accounting data containing detailed cost breakdowns. To further
assess whether LGCD was achieving its principal objective of improving stability, we sought to ascertain
whether broader data indicated LGCD’s success. This included assessing reporting by a variety of
governmental and non-governmental organizations, including the Senate Foreign Relations Committee,
U.S. Government Accountability Office, the U.S. Army National Ground Intelligence Center, and a series
of studies undertaken by Tufts University Feinstein International Center. We identified reports through
our ongoing review of literature involving activities in Afghanistan and discussion with individuals
involved in studying aid programs in Afghanistan. These reports discussed the effectiveness of aid
programs in general and in promoting stability in Afghanistan. We also examined Defense Intelligence
Agency data on enemy-initiated attacks in Afghanistan. According to Defense Intelligence Agency
officials, the data they report on enemy-initiated attacks represent a reliable and consistent source of
information that can be used to identify trends in enemy activity and the overall security situation in
Afghanistan. Senior DOD officials have used enemy-initiated attack levels as an indicator of the security
situation in overseas contingency environments on several occasions. We used data on the number of
subprojects maintained by the LGCD contractors.

To examine USAID oversight of LGCD, we reviewed USAID policies and procedures detailing oversight
responsibilities and its Federal Managers Financial Integrity Act reporting; examined USAID contract
files; and analyzed USAID/Afghanistan supplied examples that typified activity manager monitoring
reports and several examples of one contractor’s requests for payment or invoices. In addition, we met
with the contractors at their respective offices not only to discuss the LGCD project, but to review the
contractors’ LGCD financial records covering selected LGCD costs and requests for payment. We used
contractor-provided data extracts from their project management systems to quantify the number, value,
and status of LGCD subprojects and to perform other analyses. We determined that the computer-
processed data was sufficiently reliable for purposes of the audit objectives.

We assessed internal controls over contract oversight and oversight procedures through interviews with
contracting officials and reviews of relevant contract files. The results of our assessment are included in
the body of this report. We also visited selected LGCD subprojects in Logar and Nangahar Provinces.

SIGAR Audit-12-8 Development / Local Governance and Community Development                            Page 19
We conducted work at USAID headquarters in Washington, D.C.; USAID/Afghanistan in Kabul,
Afghanistan; ARD’s headquarters in Burlington, Vermont; DAI’s headquarters in Bethesda, Maryland;
and in Nangahar and Logar Provinces, Afghanistan, from January 2011 to March 2012. The review was
conducted in accordance with generally accepted government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
for our findings and conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objectives. This audit
was conducted by the Special Inspector General for Afghanistan Reconstruction under the authority of
 Pub. L. No. 110-181, as amended; the Inspector General Act of 1978; and the Inspector General Reform
Act of 2008, Pub. L. No. 110-409.




SIGAR Audit-12-8 Development / Local Governance and Community Development                          Page 20
APPENDIX II: ARD’S CONTRACT MODIFICATIONS

   The following table summarizes the modifications to Associates in Rural Development,
   Incorporated’s contract for the Local Government and Community Development project.

   Table I: Modifications to IQC DFD I-00-05-00248, Task Order 02

   Award                 Date               Purpose                                            Cost/schedule change

                                                                                               $9 million obligated and
   LGCD task order                          Outlined the statement of work, reporting
                        Oct. 8, 2006                                                           completion date set for
   award                                    requirements, ceiling price, etc., for LGCD TO.
                                                                                               Oct. 8, 2009.

                                                                                               Task order obligation
   Modification
                        Dec. 21, 2006       Increased task order obligation by $3.5 million.   increased from $9 million
     (Mod) 1
                                                                                               to $12.5 million.

                                            Restructured level of effort and workdays
   Mod 2                Oct. 11, 2007       ordered, incorporated “procedural mechanism”       None
                                            into task order, and fixed typographical error.

                                                                                               Task order obligation
   Mod 3                Dec. 3, 2007        Increased task order obligation by $2.9 million.   increased from $12.5
                                                                                               million to $15.4 million.

                                            Revised statement of work and added
   Mod 4                Mar. 28, 2008                                                          None
                                            supplemental budget.

                                            Increased task order obligation by $40 million.    Task order obligation
   Mod 5                Jun. 02, 2008       ARD directed to establish an accounting and        increased from $15.4
                                            management system for supplemental funds.          million to $55.4 million.

                                            Restructured level of effort and workdays
                                            ordered. Revised “Approved Procedures
   Mod 6                Jul. 14, 2008                                                          None
                                            Mechanism,” statement of work, and Section
                                            A.4 dealing with reports. Realigned budget.

                                                                                               Task order obligation
                                            Incrementally increased funding for the task
   Mod 7                Nov. 30, 2008                                                          increased from $55.4
                                            order by $15 million.
                                                                                               million to $70.4 million.

                                            Realigned the core and supplemental budgets.
   Mod 8                Jan. 28, 2009                                                          None
                                            Made changes to parts of task order narrative.

                                                                                               Task order obligation
                                            Terminated task order for convenience and
   Mod 9                Jun. 02, 2009                                                          reduced from $70.4
                                            deobligated $13 million.
                                                                                               million to $57.4 million.

   Source: SIGAR’s analysis of the modifications to IQC DFD I-00-05-00248, Task Order 02.




SIGAR Audit-12-8 Development / Local Governance and Community Development                                            Page 21
APPENDIX III: DAI’S CONTRACT MODIFICATIONS

 The following table summarizes the modifications to Development Alternatives, Inc.’s contract for the
 Local Government and Community Development project.

 Table II: Modifications to IQC DFD I-02-05-00250, Task Order 02
 Award            Date            Purpose                                             Cost/schedule change

                                                                                      $18 million obligated and task
 LGCD task order                  Outlined the statement of work, reporting
                 Oct. 2, 2006                                                         order completion date set for
 award                            requirements, ceiling price, etc.
                                                                                      October 01, 2009.

 Modification                                                                         Task order obligation increased
                  Dec. 12, 2006   Increased task order obligation by $6.9 million.
   (Mod) 1                                                                            from $18 million to $24.9 million.

                                                                                      Task order obligation increased
 Mod 2            Nov. 30, 2007   Increased task order obligation by $2.5 million,    from $24.9 million to $27.4
                                                                                      million.

                                  Increased task order obligation by $68.8 million. Task order obligation increased
 Mod 3            Nov. 30, 2007   Revised statement of work. Realigned budget       from $27.4 million to $96.2
                                  data. Added “procedure mechanism.”                million.

                                                                                      Task order obligation increased
 Mod 4            Feb. 6, 2008    Increased task order obligation by $5.5 million.    from $96.2 million to $101.7
                                                                                      million.

                                  Modified statement of work regarding work
 Mod 5            Apr. 29, 2008                                                       None
                                  locations.

                                                                                    Task order obligation increased
 Mod 6            May 14, 2008    Increased task order obligation by $17.7 million. from $101.7 million to $119.4
                                                                                    million.

                                  Restructured the level of effort and workdays.
 Mod 7            Jul. 15, 2008   Changed approval procedure mechanism.               None
                                  Realigned budget.

                                                                                    Task order obligation increased
 Mod 8            Nov. 30, 2008   Increased task order obligation by $28.4 million. from $119.4 million to $147.7
                                                                                    million.

                                  Earmarked $5 million for Nangarhar Province.
                                  Increased task order obligation by $5 million.
                                                                                      TO obligation increased from
 Mod 9            Dec. 30, 2008   Realigned budget. Clarified in-kind support
                                                                                      $147.7 million to $152.7 million.
                                  requirements. Corrected administrative error
                                  from Mod 7.

                                  Realigned budget based on actual incurred costs
                                  and updated the level of effort table to reflect
 Mod 10           May 10, 2009                                                     None
                                  personnel approvals. Adjusted budget to allow
                                  more funds for sub-grants and commodities.

                                  Increased task order obligation by $16.3 million.   Task order obligation increased
                                  Scope of Work changed to align LGCD with            from $152.7 million to $169.1
 Mod 11           Sep. 16, 2009   U.S. government counterinsurgency strategy,         million. Task order completion
                                  remove component 1 from LGCD, and expand            date extended from December 1,
                                  geographic scope from 16 to 22 provinces.           2009 to September 30, 2010.

                                                                                      Task order obligation increased
 Mod 12           Oct. 19, 2009   Increased task order obligation by $63 million.     from $169.1 million to $232.1
                                                                                      million.


SIGAR Audit-12-8 Development / Local Governance and Community Development                                        Page 22
 Award             Date                Purpose                                              Cost/schedule change

                                       Increased task order obligation by $34 million.
                                       Increased period of performance and geographic       Task order obligation increased
                                       scope to include key districts in the north.         from $232.1 millionto $266.1
 Mod 13            Mar. 31, 2010       Realigned budget. Added three intermediate           million. Task order completion
                                       results to the scope of work. Increased workdays     tade extended from September 30,
                                       ordered. Revised reporting schedule. Revised         2010 to April 30, 2011.
                                       approval procedures.

                                       Increased task order obligation by $50 million.
                                                                                       Task order obligation increased
                                       Increased maximum grant amounts in Kandahar
 Mod 14            Aug. 1, 2010                                                        from $266.1 million to $316.1
                                       to $25,000. Added Federal Acquisition
                                                                                       million.
                                       Regulation changes and AAPD 10-04.

 Mod 15            Nov. 1, 2010        Adjusted task order obligation amounts.              None

                                       Required use of the Synchronized
                                       Predeployment and Operational Tracker for
                                       contractors supporting a diplomatic or consular
 Mod 16            Feb. 1, 2011        Mission outside the United States. Required          None
                                       contractors to report serious incidents (gun fire,
                                       deaths, etc.). Provided information on gender
                                       integration requirements.

                                       Incrementally funded the contract to                 Task order completion date
                                       $328.1 million. Realigned budget, removed key        extended from April 30, 2011 to
 Mod 17            Feb. 11, 2011       northern districts from the project, revised scope   August 2011. Increased TO
                                       of work, modified approval procedures, and           obligation from $316.1 million to
                                       fixed typographical error.                           $328.1 million.

 Source: SIGAR analysis of the modifications to IQC DFD I-02-05-00250, Task Order 02.




SIGAR Audit-12-8 Development / Local Governance and Community Development                                              Page 23
APPENDIX IV: EXTENT TO WHICH DAI MET PERFORMANCE INDICATORS IN
FISCAL YEARS 2009, 2010, AND 2011

 Tables III-V summarize Development Alternatives, Inc.’s (DAI) reported success in meeting
 performance targets in fiscal years 2009, 2010, and 2011, respectively.

 Table III: DAI-Reported Success in Meeting Performance Targets in Fiscal Year 2009
 Indicator                                                                                              Target
              Indicator name                                                     Target   Achievement
 number                                                                                                 met
              Target institutions, such as Office of the Provincial Governor,
                Provincial Development Committee, and selected
     1                                                                             60           116     Yes
                Provincial Line Ministry Departments, implementing
                service delivery performance mechanisms
              Target institutions reporting publicly on service delivery
     2          performance improvements                                           60            75     Yes

              Provincial Development Committees demonstrating improved
     3           performance toward operational guidelines as measured by          12            15     Yes
                 Quarterly Service Delivery Performance reports

              Office of Provincial Governor demonstrating improved
     4          performance toward Operational Guidelines as measured              12            13     Yes
                by Quarterly Service Delivery Performance Reports

     5        Government officials trained                                       2,500         6,287    Yes

     6        Number of institutions equipped with IT or internet connection       54           196     Yes
              Number of provincial and district institutions rehabilitated
     7                                                                             32            15     No

              Percent of subprojects involving government officials in
     8           project identification, implementation, and monitoring and        80           71%     No
                 evaluation

              Number of citizens directly benefiting from subproject
     9          employment opportunities                                        10,250        17,723    Yes

              Number of citizens directly benefiting from subproject training
     10         opportunities                                                   30,000        36,849    Yes

              Percent of Component 3 (Local Stability Initiatives) areas of
                 intervention with follow on Component 1 (Local
     11                                                                           70%           35%     No
                 Governance) and Component 2 (Community Mobilization
                 and Development) activities
              Number of community-based reconciliation projects
     12         completed with U.S. government assistance                          41           127     Yes

              Number of people trained in conflict mitigation/resolution
     13         skills with U.S. government assistance                           1,780         2,036    Yes

              Number of service sector assessments
     14                                                                            20            28     Yes

              Number of rapid institutional capacity assessments of
     15         government agencies                                                60            99     Yes


 Source: DAI annual reports on the Local Governance and Community Development project.




SIGAR Audit-12-8 Development / Local Governance and Community Development                                     Page 24
 Table IV: DAI-Reported Success in Meeting Performance Targets in Fiscal Year 2010
                                                                                                                   Target
 Indicator
                 Indicator name                                                      Target       Achievement      met/yes
 number
                                                                                                                   or no

                 Percent of insecure target communities with                15% of LGCD
      1                                                                                               21.60%       Yes
                    follow-on build activities                                   districts

                 Number of community requests for activities to
      2                                                                                 62                 64      Yes
                  GIRoA

                 Percent of community members who respond that
      3             GIRoA’s ability to provide the community with                     43%                33%       No
                    basic services increased


                 Percent of community members who respond that
      4                                                                               40%                35%       No
                    stability in their community improved

                                                                                                                        a
      5          Percent of activities with community contributions                   80%                77%       Yes

                 Percent of LGCD community members who
      6             respond that their ability to meet their basic                    49%                42%       No
                    needs increased

      7          Number of assessments conducted                                        41                 11      No

                 Percent of assessments used to inform COIN
      8                                                                               80%                64%       No
                    activities

                 Number of organizations and institutions equipped
      9                                                                                220                296      Yes
                   through LGCD

                                                                                                                        a
      10         Number of key infrastructure rehabilitated                            713                705      Yes

                 Percent of activities involving government officials
      11            in project planning, implementation, and/or                       60%                66%       Yes
                    evaluation
                 Number of community-based reconciliation
      12           projects completed with U.S. government                             140                222      Yes
                   assistance
      13         Person days of training                                          200,000            115,302       No
      14         Person days of employment                                        475,000            205,546       No
                 Number of district areas of clear activities with
      15                                                                                49                 39      No
                   follow on hold activities
 Source: DAI annual reports on Local Governance and Community Development project.
 a
  DAI reported that if achievements were within 10 percent of the target it was considered a success. Although
 performance did not meet the target for this indicator, it was within 10 percent and as such we have characterized it as
 meeting the target.




SIGAR Audit-12-8 Development / Local Governance and Community Development                                                   Page 25
 Table V: DAI-Reported Success in Meeting Performance Targets in Fical Year 2011
 Indicator                                                                                                        Target
                 Indicator Name                                                      Target      Achievement
 Number                                                                                                           met
                 Number of community requests for activities to
      1            GIRoA                                                              136                 286     Yes

                 Percent of community members who respond that
      2                                                                               36%                40%      Yes
                    GIRoA’s ability to provide services increased
                 Percent of community members who respond that
                    stability in their community improved
      3                                                                               35%                42%       Yes


                 Percent of activities with community contributions
      4                                                                               93%                96%      Yes


                 Percent of community members who respond that
      5                                                                               40%                41%      Yes
                    their ability to meet needs increased
                 Number of assessments conducted
                                                                                                                       a
      6                                                                                 16                 15     Yes

                 Percent of assessments used to inform stability
      7                                                                               80%                25%      No
                    activities
                 Number of organizations and institutions equipped
      8                                                                               355                 670     Yes
                   through LGCD
                 Number of key infrastructure rehabilitated
      9                                                                               582                 992     Yes

                 Percent of activities involving government officials
      10            in project planning, implementation, and/or                       75%                85%      Yes
                    evaluation
                 Number of community-based reconciliation
      11           projects completed with USG assistance                             272                 619     Yes

                 Person days of training
      12                                                                          144,123            126,723      No


      13         Person days of employment                                        295,600            235,362      No
                 Number of district areas of clear activities with
      14                                                                                 1                  3     Yes
                   follow on hold activities
                 Number of technical advisors assigned to GIRoA
      15                                                                                 4                  7     Yes

 Source: DAI annual reports on Local Governance and Community Development project.
 a
  DAI reported that if achievements were within 10 percent of the target it was considered a success. Although
 performance did not meet the target for this indicator it was within 10 percent and as such we have characterized it as
 meeting the target.




SIGAR Audit-12-8 Development / Local Governance and Community Development                                                  Page 26
APPENDIX V: STUDY SUMMARIES ON THE IMPACT OF DEVELOPMENT ON
STABILITY

We identified and reviewed a number of studies on the impact of stabilization and development programs
on stability in Afghanistan through our ongoing review of literature involving activities in Afghanistan
and discussion with individuals involved in studying aid programs there. These studies were undertaken
by the U.S. Government Accountability Office (GAO), the U.S. Army, and a variety of non-governmental
entities. Following are short summaries of the studies.

    •   Committee on Foreign Relations, United States Senate, Majority Staff Report, Evaluating U.S.
        Foreign Assistance to Afghanistan, Senate Report 112-21, June 8, 2011. In its June 2011 report
        assessing the impact of U.S. aid in Afghanistan, the U.S. Senate Foreign Relations Committee
        stated: “The evidence that stabilization programs promote stability in Afghanistan is limited.
        Some research suggests the opposite and development best practices question the efficacy of
        using aid as a stabilization tool over the long run.”
    •   Tufts University Feinstein International Center, Winning Hearts and Minds? Examining the
        Relationship between Aid and Security in Afghanistan’s Balkh Province, November 2010;
        Winning Hearts and Minds? Examining the Relationship between Aid and Security in
        Afghanistan’s Faryab Province, January 2011; Winning Hearts and Minds? Examining the
        Relationship between Aid and Security in Afghanistan’s Helmand Province, April 2011. A series
        of studies undertaken by Tufts University Feinstein International Center examined the
        relationship between aid and security in three provinces (Helmand, Balkh, and Faryab provinces).
        Each of the reports questioned the effectiveness of using aid as an instrument of security policy.
        According to the Faryab study, there was “no evidence that aid projects contribute to stabilization
        in the short-term.”
    •   International Crisis Group, Aid and Conflict in Afghanistan, Asia Report Number 210, August 4,
        2011. This study concluded that after a decade of major security, development and humanitarian
        assistance, the international community has failed to achieve a politically stable and economically
        viable Afghanistan. The study further concluded that various assessments of aid have found that
        even with timely disbursement and project completion, the impact on lives remains uncertain,
        particularly when assistance is shaped by stabilization goals rather than the needs, priorities and
        input of the recipients. The study specifically mentioned the Local Governance and Community
        Development project.
    •   U.S. Army National Ground Intelligence Center, Afghanistan: The Effectiveness of Development
        as a Component of Counterinsurgency Strategy, NGIC-1584-8127-11, November 7, 2011. This
        assessment evaluated whether social and economic development projects in Afghanistan over the
        period 2002-2010 influenced stability conditions. The Center’s report concluded that
        development projects exerted too varied and weak an influence upon stability in Afghanistan for
        development to deserve serious consideration as a means of countering or addressing that
        country’s insurgency. In nearly all cases, development (road, road feature, education,
        governance, public health, and infrastructure projects) either negatively affected security
        indicators (incidents of violence against international coalition forces and nongovernmental
        organizations, incidents of coercion of locals, and incidents of locals turning in weapons and
        weapons components to international coalition forces) or positively impacted those indicators by
        negligible amounts.
    •   Massachusetts Institute of Technology, Political Science Department, Winning Hearts and
        Minds? Evidence from a Field Experiement in Afghanistan, Working Paper No. 2011-14, 2011.
        This study focused on the ability of the National Solidarity Program to improve stability found
        that while that program helped increase perceptions of the level of security of villagers in
        program’s areas, there was no evidence that the level of security actually had improved.

SIGAR Audit-12-8 Development / Local Governance and Community Development                          Page 27
   •   GAO, Afghanistan’s Security Environment (GAO-10-178R, November 5, 2009, and GAO-10-
       613R, May 5, 2010). In May 2010, GAO reported that the Department of State January 2010
       Afghanistan and Pakistan Regional Stabilization Strategy cited reconstruction and development
       as key elements of the overall effort to stabilize Afghanistan and reduce the strength of the
       insurgency. However, the strategy acknowledges that the success of such civilian programs in
       Afghanistan is contingent on improved security. In November 2009, GAO reported that,
       although U.S. and international development projects in Afghanistan had made some progress,
       deteriorating security complicated such efforts to stabilize and rebuild the country.
   •   Wilton Park in partnership with Tufts University Feinstein International Center, Winning ‘Hearts
       and Minds’ in Afghanistan: Assessing the Effectiveness of Development Aid in COIN Operations,
       Report on Wilton Park Conference 1022, March 2010. This was a report on a March 2010
       conference held in Wilton Park, England, with support from the Australian Agency for
       International Development, the British Foreign and Commonwealth Office and others. It
       concluded that given the centrality of development aid to current COIN doctrine and strategy,
       there is still a surprisingly weak evidence base for the effectiveness of aid in promoting
       stabilization and security objectives.




SIGAR Audit-12-8 Development / Local Governance and Community Development                       Page 28
APPENDIX VI: COMMENTS FROM THE U.S. AGENCY FOR INTERNATIONAL
DEVELOPMENT




SIGAR Audit-12-8 Development / Local Governance and Community Development   Page 29
                                                                            See SIGAR
                                                                            comment 1.




SIGAR Audit-12-8 Development / Local Governance and Community Development          Page 30
SIGAR Audit-12-8 Development / Local Governance and Community Development   Page 31
                                                                             See SIGAR
                                                                             comment 2.




                                                                            See SIGAR
                                                                            comment 3.




SIGAR Audit-12-8 Development / Local Governance and Community Development           Page 32
                                                                            See SIGAR
                                                                            comment 4.




                                                                            See SIGAR
                                                                            comment 5.




SIGAR Audit-12-8 Development / Local Governance and Community Development          Page 33
                                                                            See SIGAR
                                                                            comment 6.




                                                                            See SIGAR
                                                                            comment 7.




SIGAR Audit-12-8 Development / Local Governance and Community Development          Page 34
                                                                            See SIGAR
                                                                            comment 8.




SIGAR Audit-12-8 Development / Local Governance and Community Development           Page 35
The following are SIGAR comments on USAID’s letter date April 8, 2012:

   1. We stated in the draft report and this final report that, although the effect of LGCD on security
      levels cannot be isolated, violence data can be used as one indicator of stability. This statement is
      consistent with USAID’s own efforts to measure the success of stabilization programs, including
      LGCD. Specifically, USAID’s Request for Task Order Proposal for an independent contractor to
      measure the impact of stabilization initiatives stated that

               “The platform must be capable of using advanced statistical methods in spatial analysis to
               quantify space-time interaction dependence between incidents of violence, perceptions of
               stability, and USAID interventions. That is, the analysis shall reveal where USAID
               interventions decrease the likelihood of violence, and identify stabilization trends at local,
               district, provincial, and other geographic scales. Working at first with existing geo-
               located data on stabilization interventions, violent incidents, and local perceptions, the
               platform shall be built to analyze which past interventions were most effective at
               reducing the incidence of violence and improving perceptions of stability, security, and
               government legitimacy.”

   2. We stated in the draft report and this final report that the original task orders envisioned that the
      majority of contractor costs would be for subgrants, commodities, and infrastructure programs—
      the line items most directly related to individual LGCD subprojects and, therefore, most likely to
      reach subproject beneficiaries. However, in subsequent contract modifications, USAID reduced
      the proportion of these costs to less than half of the total LGCD ceiling price. We highlighted
      this reduction as one of many indicators of the challenging environment in which LGCD
      operated.

   3. We clarified the report, accordingly.

   4. We recognize that DCAA has a large backlog of incurred cost audits. The concern we expressed
      was that, although DCAA is more than a decade behind in its incurred cost audits of DAI and 5
      years behind in such audits for ARD, USAID had not made other arrangements until recently to
      obtain incurred cost audits, as allowed by its directives. USAID did so in response to a USAID
      OIG recommendation.

   5. We stated that the USAID OIG had challenged some of DAI's costs and recommended that
      USAID/Afghanistan determine the allowability of and, as appropriate, recover the questioned
      costs from DAI. USAID agreed to do so. We recognize that contracting officers decide if costs
      are allowable.

   6. We added this information to appendix IV.

   7. In programs like LGCD, the risk the U.S. government accepts is particularly high. Therefore, it is
      not only appropriate, but necessary, that the USAID/Afghanistan Mission Director go beyond the
      agency’s general policy by instituting additional requirements that will give the Mission greater
      assurance that contractors and recipients are claiming for reimbursement only eligible, supported
      costs.

   8. While our recommendation may have broader applicability, we addressed this recommendation at
      the Mission level given the unique risks posed by stabilization programs in Afghanistan.
      Therefore, we kept the recommendation addressed to the Mission Director. If USAID believes
      that the recommendation has broader applicability, we welcome its efforts to apply it throughout
      the agency.



SIGAR Audit-12-8 Development / Local Governance and Community Development                                       Page 36
       (This report was conducted under the audit project code SIGAR-041A).




SIGAR Audit-12-8 Development / Local Governance and Community Development     Page 37
SIGAR’s Mission               The mission of the Special Inspector General for
                              Afghanistan Reconstruction (SIGAR) is to enhance
                              oversight of programs for the reconstruction of
                              Afghanistan by conducting independent and objective
                              audits, inspections, and investigations on the use of
                              taxpayer dollars and related funds. SIGAR works to
                              provide accurate and balanced information, evaluations,
                              analysis, and recommendations to help the U.S. Congress,
                              U.S. agencies, and other decision-makers to make
                              informed oversight, policy, and funding decisions to:
                                 •   improve effectiveness of the overall reconstruction
                                     strategy and its component programs;
                                 •   improve management and accountability over funds
                                     administered by U.S. and Afghan agencies and their
                                     contractors;
                                 •   improve contracting and contract management
                                     processes;
                                 •   prevent fraud, waste, and abuse; and
                                 •   advance U.S. interests in reconstructing
                                     Afghanistan.

Obtaining Copies of SIGAR     To obtain copies of SIGAR documents at no cost, go to
Reports and Testimonies       SIGAR’s web site (www.sigar.mil). SIGAR posts all
                              released reports, testimonies, and correspondence on its
                              web site.

To Report Fraud, Waste, and   To help prevent fraud, waste, and abuse by reporting
Abuse in Afghanistan          allegations of fraud, waste, abuse, mismanagement, and
Reconstruction Programs       reprisal contact SIGAR’s hotline:
                                 •   Web: www.sigar.mil/fraud
                                 •   Email: sigar.pentagon.inv.mbx.hotline@mail.mil
                                 •   Phone Afghanistan: +93 (0) 700-10-7300
                                 •   Phone DSN Afghanistan 318-912, ext. 7303
                                 •   Phone International: +1-866-329-8893
                                 •   Phone DSN International: 312-664-0378
                                 •   U.S. fax: +1-703-601-4065

Public Affairs                Public Affairs Officer
                              Phone: 703-545-5974
                              Email: sigar.pentagon.ccr.mbx.public-affairs@mail.mil
                              Mail: SIGAR Public Affairs
                              2530 Crystal Drive
                              Arlington, VA 22202
